1a
APPENDIX
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0281p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

M.S. Willman,
Plaintiff-Appellant,
v.
Attorney General of the
United States of America,
Defendant-Appellee.

[
[
[
[
[
[
[
[

No. 19-2405

Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
No. 2:19-cv-10360—Gershwin A. Drain, District
Judge.
Argued: August 3, 2020
Decided and Filed: August 26, 2020
Before: GRIFFIN, KETHLEDGE, and THAPAR,
Circuit Judges.
________________
COUNSEL
ARGUED: Daniel C. Willman, Pinckney, Michigan, for
Appellant. Ashley A. Cheung, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C., for
Appellee.
ON BRIEF: Daniel C. Willman, Pinckney, Michigan,
for Appellant. Ashley A. Cheung, Mark B. Stern,
UNITED STATES DEPARTMENT OF JUSTICE,
Washington, D.C., for Appellee. Adele D. Nicholas,
Chicago, Illinois, Richard Gladden, LAW OFFICE OF
RICHARD GLADDEN, Denton, Texas, Miriam J.

2a
Aukerman, AMERICAN CIVIL LIBERTIES UNION
FUND OF MICHIGAN, Grand Rapids, Michigan,
Daniel S. Korobkin, AMERICAN CIVIL LIBERTIES
UNION FUND OF MICHIGAN, Detroit, Michigan,
Paul D. Reingold, UNIVERSITY OF MICHIGAN, Ann
Arbor, Michigan, for Amici Curiae.

OPINION
GRIFFIN, Circuit Judge.
The principal issue in this appeal is whether the
registration and notification obligations set forth in the
federal Sex Offender Registration and Notification Act
(SORNA) apply to sex offenders who are convicted
under state law but are not subject to that state’s sex
offender registration and notification requirements.
Our sister circuits have answered the question in the
affirmative and so have we in an unpublished opinion,
United States v. Paul, 718 F. App’x 360, 363–64 (6th
Cir. 2017). Today, based upon the text of the statute,
we follow those decisions and hold that a sex offender’s
obligations under SORNA are independent of any
duties under state law.
Plaintiff M.S. Willman also argues that SORNA
is unconstitutional for several reasons. We conclude
that none of these arguments have merit and therefore
affirm the judgment of the district court dismissing
plaintiff’s complaint.
I.
In 1993, plaintiff M.S. Willman was convicted
for violating a Michigan law that prohibits “[a]ssault
with intent to commit criminal sexual conduct
involving sexual penetration.” Mich. Comp. Laws §
750.520g(1). He served ten years in prison and

3a
completed parole. Additionally, Willman registered on
Michigan’s sex offender registry.
Congress, in 2006, passed the Sex Offender
Registration and Notification Act (SORNA), Pub. L.
No. 109-248, 120 Stat. 590, 34 U.S.C. § 20901 et seq.
The statute aimed to “make more uniform what had
remained ‘a patchwork of federal and 50 individual
state registration systems,’ with ‘loopholes and
deficiencies’ that had resulted in an estimated 100,000
sex offenders becoming ‘missing’ or ‘lost.’” Nichols v.
United States, 136 S. Ct. 1113, 1119 (2016) (citation
omitted). As a part of that effort, SORNA “made it a
federal crime for a sex offender who meets certain
requirements to ‘knowingly fai[l] to register or update
a registration as required by [SORNA].’” Id. at 1116
(citation omitted and alterations in original).
Willman filed his complaint in February 2019,
challenging his registration and notification duties
under Michigan state law and federal law. Among
other things, Willman sought a declaration that
SORNA was unconstitutional, and therefore he was
not required to comply with it.
In April 2019, the district court entered a
stipulated order regarding plaintiff and the state
defendants. The order dismissed the Michigan
defendants from the case with prejudice and directed
them to “not enforce the 2006 and 2011 . . .
amendments [to Michigan’s Sex Offender Registration
Act (SORA)] against [p]laintiff.” Additionally, it
declared that (1) “the duration of [plaintiff’s]
registration [under SORA] has ended”; (2) “[p]laintiff
shall no longer be subject to any registration or
verification requirements of SORA”; and (3) “[p]laintiff
shall be removed from the SORA registry within 3

4a
business days from the date of entry of this order.”
1
Notably, the order did not mention the federal sex
offender law (SORNA) or the federal defendant, the
Office of the U.S. Attorney General.
Subsequently, the remaining defendant—the
U.S. Attorney General—filed a motion to dismiss
pursuant to Federal Rule of Civil Procedure 12(b)(6).
He argued that all of plaintiff’s constitutional claims
were facially implausible. Defendant also contended
that the stipulated order had “no bearing on Willman’s
obligations under federal law (i.e., SORNA).” The
district court granted the motion to dismiss and
entered judgment in favor of defendant. Plaintiff
timely appealed.
II.
“We review de novo a district court’s decision to
dismiss a complaint under Rule 12(b)(6).” Swanigan v.
FCA US LLC, 938 F.3d 779, 783 (6th Cir. 2019). A
Rule 12(b)(6) movant “has the burden to show that the
plaintiff failed to state a claim for relief.” Coley v.
Lucas Cty., 799 F.3d 530, 537 (6th Cir. 2015). “To
survive a motion to dismiss, a complaint must present
facts that, if accepted as true, sufficiently ‘state a claim
to relief that is plausible on its face.’” Id. (quoting Bell

1

The stipulated order—regarding plaintiff, the Michigan
defendants, and Michigan’s Sex Offender Registration Act
(SORA)—was based on our decision in Does #1–5 v. Snyder, 834
F.3d 696 (6th Cir. 2016). In that case, we determined that SORA
was an unconstitutional ex post facto law because it was
retroactive, and its stringent restrictions (such as severe limits on
where sex offenders were allowed to live and work) constituted
punishment. Id. at 698, 701–06. Given our decision in Does #1–5,
and plaintiff and the Michigan defendants’ “wish to avoid further
litigation and expense,” they “consent[ed] to entry of th[e]
[stipulated] order.”

5a
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “A
claim is facially plausible when a plaintiff ‘pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.’” Id. (quoting Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009)). “We construe [plaintiff’s]
complaint in the light most favorable to [him], and
accept the complaint’s allegations as true, drawing all
reasonable inferences in favor of [plaintiff].” Id. But
“[w]e need not accept as true legal conclusions or
unwarranted factual inferences, and conclusory
allegations or legal conclusions masquerading as
factual allegations will not suffice.” Terry v. Tyson
Farms, Inc., 604 F.3d 272, 276 (6th Cir. 2010) (citation
omitted).
III.
The main issue in this appeal is whether
SORNA applies to plaintiff, even though he lacks statelaw sex offender registration and notification
obligations. We hold that it does.
SORNA states that “[a] sex offender shall
register, and keep the registration current, in each
jurisdiction where the offender resides, where the
offender is an employee, and where the offender is a
student.” 34 U.S.C. § 20913(a). The statute defines “sex
offender” as “an individual who was convicted of a sex
offense.” 34 U.S.C. § 20911(1). The term “jurisdiction”
includes states of the United States, such as Michigan
(which is where plaintiff resides). 34 U.S.C. §
20911(10)(A). For the purposes of SORNA, “sex
offense” means, among other things, “a criminal
offense that has an element involving a sexual act or
sexual contact with another.” 34 U.S.C. §
20911(5)(A)(i). Moreover, SORNA makes it a crime for
“[w]hoever . . . is required to register under” the statute
to “travel[ ] in interstate . . . commerce” and

6a
“knowingly fail[ ] to register or update a registration as
required by” the statute. 18 U.S.C. § 2250(a). But in a
SORNA prosecution for failure to register, an
individual has an affirmative defense if “(1)
uncontrollable circumstances prevented the individual
from complying; (2) the individual did not contribute to
the creation of such circumstances in reckless
disregard of the requirement to comply; and (3) the
individual complied as soon as such circumstances
ceased to exist.” 18 U.S.C. § 2250(c).
Willman’s crime of conviction constitutes a sex
offense under SORNA, and he does not argue
otherwise. See Mich. Comp. Laws § 750.520g(1); 34
U.S.C. § 20911(5)(A)(i). Because he “was convicted of a
sex offense,” he is a sex offender under the statute. 34
U.S.C. § 20911(1). And because all “sex offender[s]” are
subject to SORNA’s obligations, Willman is too.
Plaintiff’s arguments to the contrary are without
merit. First, Willman contends that SORNA applies to
him only if an applicable jurisdiction’s state law
requires him to be on its sex offender registry. The
applicable jurisdiction here—Michigan—no longer
requires Willman to be on its sex offender registry.
Therefore, according to Willman, SORNA’s obligations
do not apply to him. The statute’s text, however, does
not support Willman’s argument. As we explained
above, SORNA’s applicability to plaintiff turns on
whether he is a “sex offender.” 34 U.S.C. § 20913(a) (“A
sex offender shall register, and keep the registration
current . . . .” (emphasis added)). When Michigan
removed Willman from its sex offender registry for the
purposes of state law, he continued to be “an individual
who was convicted of a sex offense.” 34 U.S.C. §
20911(1). Accordingly, his argument fails.
Second, plaintiff suggests our interpretation of
the statute would lead to the absurd result of him

7a
having an affirmative defense to a prosecution
predicated on failure to register if he offered to register
in Michigan and the state declined his offer. That is
speculation and would not be an absurd result.
“The obligation SORNA . . . impose[s]—the obligation
to register—is imposed on sex offenders, not states.”
2
Stock, 685 F.3d at 626 (emphasis added). “That
obligation exists [for sex offenders] whether or not a
state chooses to implement SORNA’s requirements and
whether or not a state chooses to register sex offenders
at all.” Id. “Because states can choose not to accept sexoffender registrations,” id., it is sensical (not absurd)
that SORNA accounts for that by providing an
affirmative defense when certain criteria are met,
including when “uncontrollable circumstances
prevented the individual from complying,” 18 U.S.C. §
2250(c). Further, we agree with the federal government
that the affirmative defense is available to Willman if
Michigan does not permit him to register. After that,
there is nothing else for plaintiff to do (from the
perspective of SORNA) unless at least one relevant
circumstance changes. Therefore, Willman’s absurdity
argument is unpersuasive.
Accordingly, we agree with our unpublished
opinion and several of our sister circuits that federal
SORNA obligations are independent of state-law sex
offender duties. See Paul, 718 F. App’x at 364 (“[I]f
Congress meant for sex offenders’ SORNA
requirements to depend on state registration
requirements, the Act would specifically say so. Like

2

Instead of imposing requirements on states, SORNA
“conditions federal funds on states’ voluntary compliance with a
federal [sex offender] registration regime.” United States v. Stock,
685 F.3d 621, 626 (6th Cir. 2012).

8a
the government, we read SORNA to bind all
individuals ‘convicted’ of sex offenses, not just those
with corresponding state obligations.” (citation
omitted)); United States v. Del Valle-Cruz, 785 F.3d 48,
55 (1st Cir. 2015) (“The triggering event for the duty to
register [under SORNA] is a sex offense conviction, not
a state sentence requiring registration . . . .”); United
States v. Pendleton, 636 F.3d 78, 86 (3d Cir. 2011)
(“Put simply, [the sex offender’s] duty to register under
SORNA was not dependent upon his duty to register
under [state] law.”); United States v. Billiot, 785 F.3d
1266, 1269 (8th Cir. 2015) (“SORNA imposes an
independent federal obligation for sex offenders to
register that does not depend on, or incorporate, a
state-law registration requirement.”); Kennedy v.
Allera, 612 F.3d 261, 267–68 (4th Cir. 2010)
(concluding that SORNA imposes obligations on a sex
offender that are independent of state law).
IV.
Willman also asserts that SORNA is
unconstitutional for several reasons. None of these
claims are facially plausible.
In Count I, plaintiff alleges that SORNA is
unconstitutional under the Ex Post Facto Clause. In
United States v. Felts, however, we considered and
rejected the argument that SORNA violates that
provision of the Constitution. 674 F.3d 599, 605–06
(6th Cir. 2012). Moreover, several of our sister circuits
have also held that SORNA does not violate the Ex
Post Facto Clause. See, e.g., United States v. Wass, 954
F.3d 184, 189–193 (4th Cir. 2020); United States v.
Parks, 698 F.3d 1, 6 (1st Cir. 2012); United States v.
Elkins, 683 F.3d 1039, 1045 (9th Cir. 2012); United
States v. Leach, 639 F.3d 769, 773 (7th Cir. 2011),

9a
abrogated in part on other grounds by Nichols, 136 S.
Ct. at 1113; Bacon v. Neer, 631 F.3d 875, 878 (8th Cir.
2011); United States v. W.B.H., 664 F.3d 848, 860 (11th
Cir. 2011); United States v. Shenandoah, 595 F.3d 151,
158–59 (3d Cir. 2010), abrogated on other grounds by
Reynolds v. United States, 565 U.S. 432 (2012); United
States v. Guzman, 591 F.3d 83, 94 (2d Cir. 2010), as
amended (Jan. 8, 2010); United States v. Young, 585
F.3d 199, 206 (5th Cir. 2009); United States v.
Lawrance, 548 F.3d 1329, 1336 (10th Cir. 2008).
Therefore, Willman’s Ex Post Facto Clause claim is not
facially plausible.
Willman’s second claim is that SORNA violates
the Fifth Amendment’s Double Jeopardy Clause. He
concedes, however, that he did not brief this issue as
part of his appeal. Plaintiff also admits that “SORNA
is a civil statute to which double jeopardy does not
apply.” Willman therefore waived or forfeited his
Double Jeopardy Clause claim. Swanigan, 938 F.3d at
788.
Plaintiff also asserts (Count III) that SORNA is
cruel and unusual punishment prohibited by the
Eighth Amendment. However, to violate the cruel and
unusual punishment prohibition, a sanction must be a
punishment. See Cutshall v. Sundquist, 193 F.3d 466,
477 (6th Cir. 1999). In Cutshall, we concluded that a
state sex offender registry law did not violate the
Eighth Amendment because it “d[id] not impose
punishment.” Id. And in reaching that conclusion, we
relied in part on our analysis that the state law was
not punishment for purposes of the Ex Post Facto
Clause. Id. (“Because the [state sex offender registry
law] imposes no punishment, the Ex Post Facto Clause
is not implicated.” (emphasis omitted)). Likewise,
SORNA is not a punishment for purposes of the Ex
Post Facto Clause. Felts, 674 F.3d at 606. It follows,

10a
therefore, that SORNA is not punishment for purposes
of the Eighth Amendment either. Accordingly,
Willman’s cruel and unusual punishment claim is not
facially plausible.
Next, plaintiff alleges in Count IV that SORNA
violates his First Amendment right to privacy because
it makes “extensive personal information” about him
publicly available on the Internet. “[T]he Constitution,”
however, “does not encompass a general right to
nondisclosure of private information.” J. P. v. DeSanti,
653 F.2d 1080, 1090 (6th Cir. 1981). Additionally, in
Cutshall, we concluded that a sex offender challenging
a state registry law “ha[d] no constitutional right to
keep his registry information from being disclosed.”
193 F.3d at 481. Willman offers no reason why SORNA
should receive different treatment than state registry
laws on this issue and we see none. See United States
v. Arnold, 740 F.3d 1032, 1035 (5th Cir. 2014)
(observing that Cutshall’s logic that “the Constitution
does not provide [a sex offender] ‘with a right to keep
his registry information private,’” applies to SORNA
(quoting Cutshall, 193 F.3d at 481)). Therefore,
plaintiff’s right to privacy claim is not plausible on its
face.
Count V focuses on two provisions of the
Constitution. Plaintiff claims that SORNA violates the
Fourteenth Amendment’s Privileges or Immunities
Clause and Article IV’s Privileges and Immunities
Clause because it impermissibly restricts his right to
travel. The Fourteenth Amendment’s Privileges or
Immunities Clause is a directive to states. See U.S.
Const. amend. XIV, § 1. SORNA, however, is a federal
statute. Therefore, to the extent Count V relies on the
Fourteenth Amendment’s Privileges or Immunities
Clause, it is facially implausible.
Article IV’s Privileges and Immunities Clause

11a
protects two components of the right to travel: (1) “the
right to be treated as a welcome visitor rather than an
unfriendly alien when temporarily present in the
second State”; and (2) “for those travelers who elect to
become permanent residents, the right to be treated
like other citizens of that State.” Johnson v. City of
Cincinnati, 310 F.3d 484, 496 (6th Cir. 2002) (quoting
Saenz v. Roe, 526 U.S. 489, 500 (1999)). SORNA
requires a sex offender to register—and keep his
registration current—in each jurisdiction where he
resides, is an employee, or is a student. 34 U.S.C. §
20913(a), (c). But those registration obligations do not
burden a sex offender’s movement in a way that
violates a person’s right to travel. Several of our sister
circuits have also concluded that SORNA does not
violate a person’s constitutional right to travel. See,
e.g., United States v. Holcombe, 883 F.3d 12, 17–18 (2d
Cir. 2018); Bacon, 631 F.3d at 878; United States v.
Byrd, 419 F. App’x 485, 491 (5th Cir. 2011);
Shenandoah, 595 F.3d at 163, abrogated on other
grounds by Reynolds, 565 U.S. at 445; United States v.
Ambert, 561 F.3d 1202, 1210 (11th Cir. 2009). A sex
offender’s SORNA duties would not affect the
temporary-visit component of the right to travel. See
Nichols, 136 S. Ct. at 1119 (suggesting that if a sex
offender “move[d] from Kansas to California and
spen[t] several nights in hotels along the way,” his
registration obligations would not trigger until he
reached his new residence in California). Regarding
the become-a-permanent-resident component of the
right to travel, SORNA would treat an incoming sex
offender resident no different than an existing sex
offender resident—both would have the same
obligation to register. Accordingly, Willman’s right-totravel claim is not facially plausible.
In Count VI, Willman asserts that SORNA’s

12a
registration requirements constitute unreasonable
seizures that violate the Fourth Amendment.
Generally, a person is “seized” within the meaning of
the Fourth Amendment when a government official (1)
“applies physical force to restrain” the person or (2)
“applies . . . ‘a show of authority [that] has in some way
restrained the liberty of [the person].’” United States v.
Jeter, 721 F.3d 746, 751–52 (6th Cir. 2013) (quoting
Terry v. Ohio, 392 U.S. 1, 19 n.16 (1968)). SORNA
requires a sex offender to update his registration
information if he moves to a new residence, place of
employment, or educational institution. 34 U.S.C. §
20913(c). But those obligations do not prohibit plaintiff
from exercising his liberty to go to different places, and
they do not even require him to obtain permission first.
See United States v. Benevento, 633 F. Supp. 2d 1170,
1210 (D. Nev. 2009) (observing, in a discussion of
SORNA and the right to travel, that “[s]ex offenders
traveling from state to state may still do so freely
without first seeking permission from authorities”).
Additionally, in Hautzenroeder v. Dewine, we concluded
that Ohio’s sex offender registry law—which imposes
obligations that are more burdensome than
SORNA’s—did not render a sex offender “in custody”
for the purposes of a 28 U.S.C. § 2254 habeas petition.
See 887 F.3d 737, 741–44 (6th Cir. 2018). Likewise,
SORNA does not render Willman “seized,” so his
Fourth Amendment claim is not facially plausible.
The complaint’s seventh count alleges that SORNA is
unconstitutional in two ways. First, plaintiff claims
that SORNA violates the First Amendment’s
overbreadth doctrine. If a challenged “law does not
reach a substantial amount of constitutionally
protected conduct, ‘then the overbreadth challenge
must fail.’” Speet v. Schuette, 726 F.3d 867, 873 (6th
Cir. 2013) (citation omitted). SORNA makes it a crime

13a
for a sex offender—who “travels in interstate . . .
commerce”—to “knowingly fail[ ] to register or update
a registration as required by” SORNA. 18 U.S.C. §
2250(a). The complaint, however, does not articulate
which aspects of the criminalized conduct the First
Amendment protects. For that reason, Willman’s
overbreadth claim is not plausible on its face.
Count VII also alleges that SORNA is
unconstitutionally vague under the Fourteenth
Amendment’s Due Process Clause. The Fourteenth
Amendment’s Due Process Clause is a directive to the
states. See U.S. Const. amend. XIV, § 1. SORNA,
however, is a federal law. Therefore, this claim fails
from the start. But even if Willman had invoked the
Fifth Amendment’s Due Process Clause, which does
apply to the federal government, his claim would not
have been facially plausible.
To establish that a statute is unconstitutionally
vague, a plaintiff must show that the statute “fails to
provide a person of ordinary intelligence fair notice of
what is prohibited, or is so standardless that it
authorizes discriminatory enforcement.” United States
v. Paull, 551 F.3d 516, 525 (6th Cir. 2009) (quoting
United States v. Williams, 553 U.S. 285, 304 (2008)).
On appeal, Willman contends that because Michigan
removed him from its registry, he is not a person
“required to register under” SORNA. See 18 U.S.C. §
2250(a)(1). And if the government nevertheless
prosecuted him, plaintiff asserts that he would lack
fair notice that he was “required to register under” the
statute. But, as explained earlier, SORNA is
unambiguous. The statute states that “[a] sex offender
shall register.” 34 U.S.C. § 20913(a) (emphasis added).
And it defines “sex offender” as “an individual who was
convicted of a sex offense.” 34 U.S.C. § 20911(1). A
person of ordinary intelligence would know if he had

14a
been convicted of a sex offense, and he would know
that being removed from his state sex offender
registry—on its own—would not change whether he
had been convicted. Accordingly, Willman’s vagueness
claim is not plausible on its face.
V.
For these reasons, we affirm the judgment of the
district court.

15a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

M.S. Willman

Case No: 19-10360
Honorable
Gershwin A. Drain

Plaintiff,
v.
United States Office of
Attorney General, et al.,
Defendants.
/

OPINION AND ORDER GRANTING
DEFENDANT’S MOTION TO DISMISS [#18]
AND CANCELLING THE OCTOBER 4, 2019
HEARING
I. INTRODUCTION
Plaintiff M.S. Willman filed the instant action
challenging the constitutionality of the Sex Offender
Registration and Notification Act (SORNA), 34 U.S.C.
§ 20901 et seq., a federal law that requires sex
offenders to “register, and keep registration current, in
each jurisdiction where the offender resides, where the
offender is an employee, and where the offender is a

16a
student.
34 U.S.C. § 20913(a).
1
Presently before the Court is the Defendant
United States Attorney General’s Motion to Dismiss
Pursuant to Federal Rule of Civil Procedure 12(b)(6),
filed on May 30, 2019. Plaintiff filed a Response to the
Defendant’s Motion on June 20, 2019. Defendant filed
a Reply on July 3, 2019. Upon review of the parties’
briefing, the Court concludes that oral argument will
not aid in the disposition of this matter. Accordingly,
the Court will cancel the hearing and will resolve the
instant matter on the briefs. E.D. Mich. L.R. 7.1(f)(2).
For the reasons that follow, the Court grants
Defendant’s Motion to Dismiss.
II. FACTUAL BACKGROUND
On November 2, 1993, Plaintiff was convicted of
criminal sexual conduct assault with intent to commit
sexual penetration and robbery. Compl.¶ 21. At the
time of his conviction, SORNA did not exist. Plaintiff
served a ten-year sentence and successfully completed
parole. Id. at ¶ 29. In his Complaint, Plaintiff brings
the following claims: Ex Post Facto Clause, Count I;
Fifth Amendment Double Jeopardy Clause, Count II;
Eighth Amendment Cruel and Unusual Punishment,
Count III; First Amendment right to privacy, Count IV;
1

In addition to his SORNA challenge, Plaintiff also challenged the
constitutionality of Michigan’s sex offender registration law- the
Sex Offender registration Act (SORA), MICH. COMP. LAWS §
28.723 et seq. However, on April 4, 2019, the Court entered the
parties’ Stipulated Order Dismissing the State Defendants who
have agreed not to “enforce the 2006 and 2011 SORA amendments
against Plaintiff.” See Dkt. No. 16. Thus, the only claims before
this Court are the constitutional challenges relative to the federal
SORNA.

17a
Privileges and Immunities Clauses of Article IV and
the Fourteenth Amendment, Count V; Fourth
Amendment unreasonable seizure, Count VI;
Overbreadth and Vagueness Doctrines of the First and
FourteenthAmendments, Count VII. Plaintiff seeks a
declaration that SORNA, as applied to him and “any
registrant,” violates the above provisions of the United
States Constitution. He also seeks an order requiring
the removal of his name from the federal sex offender
registry within 48 hours, and that he and “any
registrant” need not comply with “any past, present, or
future registration and reporting requirements” of
SORNA.
III. LAW & ANALYSIS
A. Standard of Review
Federal Rule of Civil Procedure 12(b)(6) allows the
court to make an assessment as to whether the
plaintiff has stated a claim upon which relief may be
granted. See Fed. R. Civ. P. 12(b)(6). “Federal Rule of
Civil Procedure 8(a)(2) requires only ‘a short and plain
statement of the claim showing that the pleader is
entitled to relief,’ in order to ‘give the defendant fair
notice of what the ... claim is and the grounds upon
which it rests.’” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555 (2007) (citing Conley v. Gibson, 355 U.S.
41, 47 (1957). Even though the complaint need not
contain “detailed” factual allegations, its “factual
allegations must be enough to raise a right to relief
above the speculative level on the assumption that all
of the allegations in the complaint are true.” Ass’n of
Cleveland Fire Fighters v. City of Cleveland, 502 F.3d
545, 548 (6th Cir. 2007)(quoting Bell Atlantic, 550 U.S.
at 555).

18a
The court must construe the complaint in favor
of the plaintiff, accept the allegations of the complaint
as true, and determine whether plaintiff’s factual
allegations present plausible claims. To survive a Rule
12(b)(6) motion to dismiss, plaintiff’s pleading for relief
must provide “more than labels and conclusions, and
a formulaic recitation of the elements of a cause of
action will not do.” Id. (citations and quotations
omitted). “[T]he tenet that a court must accept as true
all of the allegations contained in a complaint is
inapplicable to legal conclusions.” Ashcroft v. Iqbal,
129 S. Ct. 1937, 1949 (2009). “Nor does a complaint
suffice if it tenders ‘naked assertion[s]’ devoid of
‘further factual enhancement.’” Id. “[A] complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’” Id.
The plausibility standard requires “more than a sheer
possibility that a defendant has acted unlawfully.” Id.
“[W]here the well-pleaded facts do not permit the court
to infer more than the mere possibility of misconduct,
the complaint has alleged–but it has not ‘show[n]’–
‘that the pleader is entitled to relief.’” Id. at 1950.
B. Defendant’s Motion to Dismiss
1. Plaintiff’s Duty to Comply with SORNA
Plaintiff’s main argument is that because
Michigan removed him from the state sex offender
registry in April of this year, he is no longer required
to register under the federal SORNA.
SORNA requires that every “sex offender,”
defined as “an individual who was convicted of a sex
offense, 34 U.S.C. § 20911(1), “register, and keep the
registration current, in each jurisdiction where the
offender resides, where the offender is an employee,
and where the offender is a student.” 34 U.S.C. §

19a
20913. SORNA defines “sex offense,” § 20911(5)(A),
and federally classifies sex offenders into tiers
according to the severity of their sex offense conviction.
34 U.S.C. § 20911(2)-(4). These tiers determine the
amount of years an offender must register, § 20915,
and how many in-person visits a sex offender must
make per year. 34 U.S.C. § 20918. Thus, there is
nothing in the statutory language of SORNA that ties
federal registration to state-law requirements. This is
consistent with SORNA’s purpose to “establish[] a
comprehensive national system for the registration of
[sex] offenders.” 34 U.S.C. § 20901. Faced with “a
patchwork of federal and 50 individual state
registration systems,” Reynolds v. United States, 565
U.S. 432, 435 (2012), Congress created a uniform
federal registration duty to deal with “‘loopholes and
deficiencies [that] allowed over 100,000 sex offenders
(about 20% of the total) to escape registration.” Gundy
v. United States, 139 S.Ct. 2116 (U.S. Jun. 20, 2019)
(plurality opinion).
Thus, predicating a federal duty to register on a
state-law registration requirement would undermine
the very purpose of SORNA by re-implementing the
“patchwork of . . . 50 individual state registration
systems” with resulting “loopholes and deficiencies”
which could allow some sex offenders to escape
registration altogether. See United States v. DelValleCruz, 785 F.3d 48, 55 (1st Cir. 2015) (concluding that in
light of SORNA’s purpose of establishing greater
uniformity, it would be “illogical” to allow individual
states to determine the scope of federal registration).
Moreover, the Sixth Circuit has already
determined that a sex offender’s obligations under
SORNA do not depend on whether the sex offender has
duties under applicable state sex offender registration
laws. See United States v. Paul, 718 F. App’x 360 (6th

20a
Cir. Dec. 11, 2017). Paul was convicted of rape in state
court, but the judgment included a special condition
releasing him from the obligation to register as a state
sex offender under state law. Id. at 361. Paul argued
that “the federal registration requirement is tied
directly to the state requirement, such that only an
individual who is required to register by his state of
residence” may also be subject to the SORNA. Id. at
363 (internal quotation marks, brackets, and ellipses
omitted).
In rejecting this argument, the Sixth Circuit
Court of Appeals noted that “Paul fails to appreciate
the duality of the sex offender registration systems.”
Id. Although “a sex offender’s SORNA obligations are
coextensive with corresponding state registration
requirements,” “SORNA impose duties on all sex
offenders, irrespective of what they may be obligated to
do under state law.” Id. at 363-64 (emphasis in
original). Plaintiff argues that Paul is not binding
because it is an unpublished decision. However, it is
persuasive authority resting on facts that are
materially indistinguishable from those present here.
See Hood v. Keller, 229 F. App’x 393, 398 n.5 (6th Cir.
2007) (unpublished decisions “may constitute
persuasive authority especially where there are no
published decisions which will serve as well.”).
Additionally, at least three other circuits have issued
unanimous, published opinions recognizing the
independent obligation to comply with federal SORNA
requirements even where state law duties do not exist.
See United States v. Billiot, 785 F.3d 1266, 1269 (8th
Cir. 2015) (“SORNA imposes an independent federal
obligation for sex offenders to register that does not
depend on, or incorporate, a state-law registration
requirement.”)(emphasis in original)); United States v.
Pendleton, 636 F.3d 78, 86 (3d Cir. 2011) (holding that

21a
“Pendleton’s federal duty to register under SORNA
was not dependent upon his duty to register under
Delaware law”); Kennedy v. Allera, 612 F.3d 261, 262
(4th Cir. 2010) (affirming that “SORNA’s clear and
unequivocal requirement that individuals convicted of
sex offenses must register as sex offenders under
federal law applie[s] . . . even though Maryland had not
fully implemented SORNA.”).
Thus, contrary to Plaintiff’s argument, he is
required to comply with SORNA even though Michigan
has removed him from the SORA.
2. Ex Post Facto Clause
Plaintiff asserts that SORNA violates the Ex
Post Facto Clause of the Constitution. However, the
Sixth Circuit, along with many other circuits, has
already concluded that the SORNA does not violate the
Ex Post Facto Clause. See United States v. Felts, 674
F.3d 599 (6th Cir. 2012); Am. Civil Liberties Union of
Nevada v. Masto, 670 F.3d 1046, 1053 (9th Cir. 2012);
United States v. Neel, 641 F. App’x 782, 794 (10th Cir.
2016). In Felts, the offender argued that retroactive
application of SORNA violates the Ex Post Facto
Clause because it increased the punishment for his
crime. Id. at 605-06. The Sixth Circuit rejected this
argument and observed that there is a “unanimous
consensus among the circuits that SORNA does not
violate the Ex Post Facto Clause.” Id
Plaintiff’s reliance on Does #1-5, which held that
retroactive application of Michigan’s SORA violates the
Ex Post Facto Clause, has no bearing on the
constitutionality of SORNA because Does #1-5 only
addressed the constitutionality of Michigan’s SORA.
Does #1-5 v. Snyder, 834 F.3d 696, 706 (6th Cir. 2016).
The two statutes are different. The challenged SORA

22a
provisions included a residency restriction prohibiting
sex offenders from “living, working, or ‘loitering’ within
1,000 feet of a4 school” – a restriction the Does #1-5
court deemed “very burdensome” because it “put
significant restraints on how registrants may live their
lives.” 834 F.3d at 701-03. SORNA contains no such
restriction. See Umbarger v. Mich., No. 1:12-CV-705,
2013 WL 444024, *2 (W.D. Mich. Feb. 5, 2013) (“One
prominent feature of SORA that clearly distinguishes
it from SORNA . . . is the SORA also limits where sex
offenders may work or reside.”); United States v.
Morgan, 255 F. Supp.3d 221, 231 n.2 (D.D.C. 2017)
(noting that because “SORNA does not restrict where
registrants can live, work, or loiter, . . . the reasoning
in Snyder does not apply to SORNA.”)
Plaintiff counters that the 2017 reclassification
of SORNA from the civil code to the criminal code is
clear proof that Congress intended SORNA to be
punitive. This argument is unavailing. The Smith
court found that the placement and label of a statutory
provision is not dispositive of whether the legislature
intended the law to be punitive. Smith, 538 U.S. at 9495 (holding that the partial codification of Alaska’s sex
offender law in Alaska’s criminal code was
“[in]sufficient to support a conclusion that the
legislative intent was punitive.”); see also Cutshall v.
Sundquist, 193 F.3d 466, 474 (6th Cir. 1999)
(concluding that the location of sex offender law within
criminal procedure laws “does not assist us in
determining whether the Act was intended to serve as
punishment.”).
Based on the foregoing considerations, Plaintiff
has failed to state a viable Ex Post Facto Clause claim.

23a
3. Double Jeopardy Clause
Plaintiff argues that SORNA violates the Double
Jeopardy Clause. “The Double Jeopardy Clause of the
Fifth Amendment prohibits more than one prosecution
for the ‘same offense,’” Puerto Rico v. Sanchez Valle,
136 S. Ct. 1863, 1867 (2016), meaning that it “protects
against a second prosecution for the same offense after
conviction.” Currier v. Virginia, 138 S. Ct. 2144, 2150
(2018) (internal quotation marks omitted). As long as
each offense “requires proof of a different element” and
“proof of a fact which the other does not,” there is no
double jeopardy risk. Blockburger v. United States, 284
U.S. 299, 304 (1932).
Here, Plaintiff’s claim is foreclosed by the Sixth
Circuit’s decision in Felts, where the court held that
“failing to update [the] sex offender registry after the
enactment of SORNA was entirely separate from [the
offender’s] crime of rape of a child and aggravated
sexual battery.” Felts, 674 F.3d at 606; Watkins v. W.
Virginia State Police, No. 3:15-CV-136, 2016 WL
4548470, at *3 (N.D.W. Va. Sept. 1, 2016) (rejecting
double jeopardy challenge to retroactive application of
SORNA, concluding that “requiring the Plaintiff to
register as a sex offender is separate and distinct from
his 1987 rape conviction.”
Defendant is entitled to dismissal of Plaintiff’s
claim under the Double
Jeopardy Clause.
4. Eighth Amendment
The Eighth Amendment prohibits the infliction
of “cruel and unusual punishments.” U.S. Const.
amend. VIII. Plaintiff argues that “no other group
faces” the “restrictions, restraints and disabilities”

24a
imposed by SORNA. Plaintiff complains that offenders
are “forever kept under the shadow of their crime”
because they cannot “change domicile without giving
notice” and “become invisible” as “their home addresses
are listed permanently,” along with their images.
The Sixth Circuit’s decision in Felts that
SORNA “does not increase the punishment for the past
conviction,” Felts, 674 F.3d at 606, and its holding in
Cutshall, 193 F.3d at 477, forecloses Plaintiff’s cruel
and unusual punishment claim.
In Cutshall, the Sixth Circuit considered
whether Tennessee’s sex offender registry law violated
the Eighth Amendment’s ban on cruel and unusual
punishment, among other constitutional challenges.
Because the law did not impose punishment, the
Cutshall court concluded it could not violate the Eighth
Amendment’s cruel and unusual punishment ban. Id.
at 447 (“We have already concluded that the Act does
not impose punishment; it is regulatory in nature.
Therefore, it does not violate the Eighth Amendment’s
prohibition on cruel and unusual punishment.”).
Plaintiff argues that the watershed landmark
decision of Timbs v. Indiana, --U.S. --, 139 S. Ct. 682,
203 L.Ed. 2d 11 (2019) has created a “dramatic
landscape shift” which “clearly undercuts Defendants
[sic] reliance on Cutshall . . . to SORNA . . . because of
[the] vast array of excessive punishments.” Reply brief
at Pg ID 422. However, Timbs addressed the Eighth
Amendments’ excessive fines clause and concluded it
was incorporated by the Due Process Clause of the
Fourteenth Amendment. Id. at 689. Plaintiff does not
explain how the holding in Timbs undercuts the Sixth
Circuit’s decision in Cutshall. Defendant is likewise
entitled to dismissal of this claim.

25a
5. Right to Privacy
Plaintiff alleges that the online publication of
detailed information about him violates his right to
privacy under the First Amendment. The Supreme
Court has recognized a constitutionally protected
privacy interest “in avoiding disclosure of personal
matters.” Whalen v. Roe, 429 U.S. 589, 599 (1977). The
Sixth Circuit has read Whalen “narrowly, and will only
balance an individual’s interest in nondisclosure of
informational privacy against the public’s interest in
and need for the invasion of privacy where the
individual privacy interest is of constitutional
dimension.” Kallstrom v. City of Columbus, 136 F.3d
1055, 1061 (6th Cir. 1998).
If the privacy interest is not of “constitutional
dimension,” rational-basis scrutiny applies, and the
statute will be upheld if it is rationally related to
legitimate government interests. See Does v. Munoz,
507 F.3d 961, 966 (6th Cir. 2007) (“We conduct
rational-basis review of statutes that do not implicate
a plaintiff’s fundamental rights.”).
The privacy interest of sex offenders in keeping
their personal information confidential is not a privacy
interest of constitutional dimension. Valentine v.
Strickland, No. 5:08-CV-00993, 2009 WL 9052193, at
*8 (N.D. Ohio Aug. 19, 2009)(“[T]here is no
fundamental right to privacy that is deeply rooted in
our Nation’s history in the context of sex offender
registration statutes.”). The decision in Valentine is
supported by Doe v. Michigan Department of State
Police, 490 F.3d 491 (6th Cir. 2007).
In Doe, the Sixth Circuit considered the
interplay between Michigan’s SORA and its Holmes
Youthful Trainee Act (HYTA). Under SORA, certain
juveniles eligible for a diversion program under HYTA

26a
without entry of a conviction were required to register
as convicted sex offenders despite the absence of a
conviction for a sex offense. Id. at 494-96. The juveniles
argued that the requirement to register under SORA
violated the promise of privacy embedded in HYTA.
The Sixth Circuit rejected this argument, observing
that “[o]ther circuitcourts have considered substantive
due process arguments against the registration
requirement of sex-offender registries,” and “[e]ach . .
. has found that the registry laws are constitutional.”
Id. at 499-00. In light of its conclusion that the right of
a sex offender to be free from registration “is not a
fundamental right deeply rooted
in our Nation’s history,” the Doe court applied rational
basis scrutiny and determined that Michigan’s interest
in SORA “satisfies the rational-basis standard.” Id. at
500-01.
Plaintiff’s right to privacy claim is also undercut
by the Sixth Circuit’s decision in Cutshall, 193 F.3d at
481. The Cutshall plaintiff argued that publication of
his personal information on Tennessee’s sex offender
registry violated his right to privacy, but the Sixth
Circuit disagreed:
The Constitution does not provide
Cutshall with a right to keep his registry
information private, and the Act does not
impose any restrictions on his personal
rights that are fundamental or implicit in
the concept of ordered liberty, such as his
procreative or marital rights.
Id. The Supreme Court has also suggested that
publication of personal information about convicted sex
offenders is permissible even though it has yet to
explicitly address a right to privacy claim.

27a
The purpose and the principal effect of
notification are to inform the public for
its own safety, not to humiliate the
offender. Widespread public access is
necessary for the efficacy of the scheme,
and the attendant humiliation is but a
collateral consequence of a valid
regulation.
Smith, 538 U.S. at 99.
Based on the foregoing considerations, Plaintiff’s
right to privacy claim is subject to dismissal under
Rule 12(b)(6).
6. Privileges and Immunities Clause
Plaintiff also brings a claim under the Privileges and
Immunities Clause and argues that SORNA’s travel
reporting requirements “bar[] [registrants] from free
travel.” However, SORNA merely requires offenders to
keep their registration current. 34 U.S.C. § 20913(a),
(c). Travel is not banned under SORNA. See United
States v. Holcombe, 883 F.3d 12, 18 (2d Cir. 2018)
(“SORNA’s registration requirement does not violate [a
sex offender’s] right to travel.”); United States v. Byrd,
419 F. App’x 485, 491 (5th Cir. 2011) (“We join our
sister circuits and hold that SORNA’s registration
requirements do not implicate the fundamental right
to travel of convicted sex offenders because nothing in
the statute precludes an offender from entering or
leaving another state, being treated as a welcome
visitor in the second State, or being treated like other
citizens of that State if the offender chooses to
permanently relocate.”) (quotation marks, ellipses, and
brackets omitted); Bacon v. Neer, 631 F.3d 875, 878
(8th Cir. 2011) (“The right to travel contention has

28a
been rejected by two of our sister circuits and is
without merit on the facts of this case because Bacon
is free to travel if he registers.”); United States v.
Shenandoah, 595 F.3d 151, 162 (3d Cir. 2010)
(“[M]oving from one jurisdiction
to another entails many registration requirements
required by law which may cause some inconvenience,
but which do not unduly infringe upon any one’s right
to travel.”)
7. Unlawful Seizure
Plaintiff also alleges that the “mandatory
registration requirements and restrictions” of SORNA
subject registrants to a “continuing seizure,” in part
because registrants are required to “speculate as to the
meaning” of sex offender laws and “know the complex
SORA type statutes in every jurisdiction.”
However, an unlawful seizure occurs “only when
there is a governmental termination of freedom of
movement through means intentionally applied.”
Brower v. Cty. of Inyo, 489 U.S. 593, 597 (1989)
(emphasis omitted). The registration requirements in
SORNA do not amount to a termination of freedom of
movement. Indeed, the Sixth Circuit has concluded
that registration requirements do not render a sex
offender “in custody” for habeas corpus purposes.
Hautzenroeder v. Dewine, 887 F.3d 737, 741 (6th Cir.
2018); see also United States v. Shannon, 511 F. App’x
487, 491-92 (6th Cir. Jan. 14, 2013) (holding that
SORNA does not impose “affirmative disability or
restraint” on registrants because it does not “physically
restrain[]” them or “directly restrict their mobility,
employment, or how they spend their time.”
Here, Plaintiff has not suffered a restraint of
freedom of movement, thus Defendant is likewise

29a
entitled to dismissal of this claim.
8. Overbreadth and Vagueness Doctrines
A statute is void for vagueness if it “fails to
provide a person of ordinary intelligence fair notice of
what is prohibited or is so standardless that it
authorizes or encourages seriously discriminatory
enforcement.” United States v. Williams, 553 U.S. 285,
304 (2008). Additionally, “a law may be invalidated as
overbroad if ‘a substantial number of its applications
are unconstitutional, judged in relation to the statue’s
plainly legitimate sweep.’” United States v. Stevens,
559 U.S. 460, 473 (2010) (quoting Washington State
Grange v. Washington State Republican Party, 552
U.S. 442, 449 n.6 (2008)).
Here, Plaintiff fails to identify the specific
statutory language he is challenging, therefore his
claim is subject to dismissal on this basis alone. See
McCloud v. United States, No. 4:11-CV-1721, 2015 WL
224990, at *21 (E.D. Mo.Jan. 15, 2015) (rejecting
vagueness challenge as a basis for an ineffective
assistance of counsel claim where “movant does not
identify what particular language of the statute is
vague.”)
Moreover, vagueness challenges to SORNA have
consistently been rejected by the federal courts,
including the Sixth Circuit. See, e.g., United States v.
Holcombe, 883 F.3d 12, 17 (2d Cir. 2018) (rejecting
vagueness challenge to SORNA’s definition of reside);
Paul, 718 F. App’x at 364 (SORNA not vague as
applied to offender whose state court judgment of
conviction absolved him of duty to comply with sex
offender registry because any confusion regarding his
registration obligations stemmed from the state court
judgment and not from SORNA); United States v.

30a
Schofield, 802 F.3d 722, 730-31 (5th Cir. 2015)
(rejecting vagueness challenge to SORNA’s definition
of sex offense); United States v. Walker, 552 F. App’x
646, 647 (9th Cir. 2014) (rejecting vagueness challenge
to SORNA’s definition of reside); United Sates v.
Bruffy, 466 F. App’x 239, 243-44 (4th Cir. 2012)
(rejecting argument that SORNA’s reporting
requirements are unconstitutionally vague as applied
to transient offenders); United States v. Fox, 286 F.
Supp.3d 1219, 1224 (D. Kan. 2018) (rejecting argument
that SORNA is “overbroad because it applies to nonviolent sex offenders as well as violent predators.”).
Plaintiff’s overbreadth and vagueness challenge is also
subject to Rule 12(b)(6) dismissal.
IV. CONCLUSION
Accordingly, for the reasons articulated above,
Defendant’s Motion to Dismiss [#18] is GRANTED.
Dated: October 1, 2019

/s/Gershwin A. Drain
GERSHWIN A. DRAIN
United States District Judge

CERTIFICATE OF SERVICE
Copies of this Order were served upon attorneys of
record on
October 1, 2019, by electronic and/or ordinary mail.
/s/ Teresa McGovern
Case Manager

31a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
M.S. Willman
Plaintiff,
v.

Case No: 19-10360
Honorable
Gershwin A. Drain
Mag. Mona K. Majzoub

United States Office of Attorney General,
Michigan Office of Attorney General,
Michigan Office of Governor, Michigan
Director State Police,
Defendants.
/
Daniel C. Willman (P55867)
Attorney for Plaintiff
P.O. Box 606
Pinckney, MI 48169
248.231.0705
Joseph T. Froehlich (P71887)
Attorney for Defendants Office of
MI Attorney General, Office of the
Governor of MI and Office of the
Director of the State Police
Complex Litigation Division
P.O. Box 30736
Lansing, MI 48909
517.335.3055
STIPULATED ORDER
DISMISSING DEFENDANTS OFFICE OF
MICHIGAN ATTORNEY GENERAL, OFFICE
OF THE GOVERNOR OF MICHIGAN, AND
DIRECTOR OF THE MICHIGAN STATE
POLICE

32a
Plaintiff Mervin Willman and Defendants Office
of Michigan Attorney General, Office of the Governor
of Michigan and Office of the Director of the State
Police (The State Defendants), by counsel, stipulate to
entry of an order dismissing the State Defendants with
prejudice on the following terms:
1.

In light of the Sixth Circuit decision in
Does #1-5 v. Snyder,834 F.3d 696 (6th
Cir. 2016), cert. denied, 138 S. Ct. 55
(2017), and considering the undisputed
facts underlying Plaintiff’s claims, the
parties wish to avoid further litigation
and expense and consent toentry of this
order.

2.

The State Defendants, as well as their
officers, agents, servants, and employees,
shall not enforce the 2006 and 2011
SORA amendments against Plaintiff.

3.

Under the SORA statutes applicable to
Plaintiff, Plaintiff was subject to a 25year registration, and the duration of his
registration has ended. As a result,
Plaintiff shall no longer be subject to any
registration or verification requirements
of SORA.

4.

Plaintiff shall be removed from the SORA
registry within 3 business days from the
date of entry of this order.

5.

If Plaintiff is convicted of a listed Tier I,
II, or III offense [as listed in M.C.L.
§28.722 (r) - (w)] that occurred after July

33a

6.

7.

1, 2011, and that requires registration
under SORA, this judgment does not bar
enforcement against Plaintiff of the 2006
and 2011 amendments to SORA, or any
prior SORA statute.
This Court retains jurisdiction to enforce
this order.
Subject to the terms set forth herein and
pursuant to Fed. R. Civ. P. 41(a)(2),
Plaintiff’s claims against the Defendants
are hereby dismissed with prejudice, and
without fees or costs to any party.

IT IS SO ORDERED
Dated: April 4, 2019
s/Gershwin A. Drain
HON. GERSHWIN A. DRAIN
United States District Court Judge
The parties, through their respective counsel,
stipulate to the entry of the above order.
Daniel C. Willman (P55867)
Attorney for Plaintiff
P.O. Box 606 Pinckney, MI 48169 MI
248.231.0705
Joseph T. Froehlich (P71887)
Assistant Attorney General, Attorney for Defendants
Office of Attorney General, Office of the Governor of
MI, and Office of the Director of the State Police
Complex Litigation Division,
P. O. Box 30736 Lansing, MI 48909
517.335.3055 Dated: April 3, 2019

34a
CONSTITUTIONAL AND STATUTORY
PROVISIONS
Article 1 § 9
No bill of attainder or ex post facto Law shall be
passed.
Article 1 § 10
No state shall . . . pass any bill of attainder, ex post
facto law.
Article. III, Section 2, Clause 1
Case and Controversy
The Judicial Power shall extend to all Cases, in Law
and Equity, arising under this Constitution, the Laws
of the United States, and Treaties made, or which shall
be made, under their Authority;---to all Cases affecting
Ambassadors, other public Ministers and Consuls;---to
all Cases of admiralty and maritime Jurisdiction;---to
Controversies to which the United States shall be a
Party;---to Controversies between two or more
States;---between a State and Citizens of another
State;---between Citizens of different States,---between
Citizens of the same State claiming Lands under
Grants of different States, and between a State, or the
Citizens thereof, and foreign States, Citizens or
Subjects.
Article IV, Section 1
Full faith and credit shall be given in each state to the
public acts, records, and judicial proceedings of every
other state. And the Congress may by general laws
prescribe the manner in which such acts, records, and
proceedings shall be proved, and the effect thereof.

35a
CONSTITUTIONAL AND STATUTORY
PROVISIONS
Article IV, Section 2,
The citizens of each state shall be entitled to all
privileges and immunities of citizens in the several
states.
Article VI, Section 2,
This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all
treaties made, or which shall be made, under the
authority of the United States, shall be the supreme
law of the land; and the judges in every state shall be
bound thereby, anything in the Constitution or laws of
any State to the contrary notwithstanding.
1st Amendment (I)
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the government for a redress
of grievances.
4th Amendment (IV)
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
warrants shall issue, but upon probable cause,
supported by oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.

36a
CONSTITUTIONAL AND STATUTORY
PROVISIONS -Continued
8th Amendment (VIII)
Excessive bail shall not be required, nor excessive fines
imposed, nor cruel and unusual punishments inflicted.
14th Amendment Sec 1. (XIV)
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
18 U.S.C. § 2250
Failure to register (a) IN GENERAL.—Whoever— (1)
is required to register under the Sex Offender
Registration and Notification Act;
(2)(A) is a sex offender as defined for the purposes of
the Sex Offender Registration and Notification Act by
reason of a conviction under Federal law including the
Uniform Code of Military Justice), the law of the
District of Columbia, Indian tribal law, or the law of
any territory or possession of the United States; or
(B) travels in interstate or foreign commerce, or enters
or leaves, or resides in, Indian country; and (3)
knowingly fails to register or update a registration as
required by the Sex Offender Registration and
Notification Act.

37a
CONSTITUTIONAL AND STATUTORY
PROVISIONS -Continued
c)Affirmative Defense.—In a prosecution for a violation
under subsection (a) or (b), it is an affirmative defense
that—
(1)uncontrollable circumstances prevented the
individual from complying;
(2)the individual did not contribute to the creation of
such circumstances in reckless disregard of the
requirement to comply; and
(3)the individual complied as soon as such
circumstances ceased to exist.
34 U.S.C. §20911. Relevant definition.
In this subchapter the following definitions apply:
(1) Sex offender
The term "sex offender" means an individual who was
convicted of a sex offense.
(9) Sex offender registry
The term "sex offender registry" means a registry of
sex offenders, and a notification program, maintained
by a jurisdiction.
(10) Jurisdiction
The term "jurisdiction" means any of the following:
(A) A State.
(B) The District of Columbia.
(C) The Commonwealth of Puerto Rico.
(D) Guam.
(E) American Samoa.
(F) The Northern Mariana Islands.

38a
CONSTITUTIONAL AND STATUTORY
PROVISIONS -Continued
(G) The United States Virgin Islands.
(H) To the extent provided and subject to the
requirements of section 20929 of this title, a federally
recognized Indian tribe.
(11) Student
The term "student" means an individual who enrolls in
or attends an educational institution, including
(whether public or private) a secondary school, trade or
professional school, and institution of higher education.
(12) Employee
The term "employee" includes an individual who is
self-employed or works for any other entity, whether
compensated or not.
(13) Resides
The term "resides" means, with respect to an
individual, the location of the individual's home or
other place where the individual habitually lives.
34 U.S.C. §20913.
Registry requirements for sex offenders
(a) In general
A sex offender shall register, and keep the registration
current, in each jurisdiction where the offender resides,
where the offender is an employee, and where the
offender is a student. For initial registration purposes
only, a sex offender shall also register in the
jurisdiction in which convicted if such jurisdiction is
different from the jurisdiction of residence.

39a
CONSTITUTIONAL AND STATUTORY
PROVISIONS -Continued
(b) Initial registration
The sex offender shall initially register—
(1) before completing a sentence of imprisonment with
respect to the offense giving rise to the registration
requirement; or
(2) not later than 3 business days after being sentenced
for that offense, if the sex offender is not sentenced to
a term of imprisonment.
(c) Keeping the registration current
A sex offender shall, not later than 3 business days
after each change of name, residence, employment, or
student status, appear in person in at least 1
jurisdiction involved pursuant to subsection (a) and
inform that jurisdiction of all changes in the
information required for that offender in the sex
offender registry. That jurisdiction shall immediately
provide that information to all other jurisdictions in
which the offender is required to register.
(d) Initial registration of sex offenders unable to
comply with subsection (b)
The Attorney General shall have the authority to
specify the applicability of the requirements of this
subchapter to sex offenders convicted before the
enactment of this chapter or its implementation in a
particular jurisdiction, and to prescribe rules for the
registration of any such sex offenders and for other
categories of sex offenders who are unable to comply

40a
CONSTITUTIONAL AND STATUTORY
PROVISIONS -Continued
with subsection (b).
(e) State penalty for failure to comply
Each jurisdiction, other than a Federally recognized
Indian tribe, shall provide a criminal penalty that
includes a maximum term of imprisonment that is
greater than 1 year for the failure of a sex offender to
comply with the requirements of this subchapter.
34 U.S.C. §20921. National Sex Offender
Registry
(a) Internet
The Attorney General shall maintain a national
database at the Federal Bureau of Investigation for
each sex offender and any other person required to
register in a jurisdiction's sex offender registry. The
database shall be known as the National Sex Offender
Registry.
(b) Electronic forwarding
The Attorney General shall ensure (through the
National Sex Offender Registry or otherwise) that
updated information about a sex offender is
immediately transmitted by electronic forwarding to
all relevant jurisdictions.
34 U.S.C. §20922
Dru Sjodin National Sex Offender Public
Website
(a) Establishment
There is established the Dru Sjodin National Sex
Offender Public Website (hereinafter in this section

41a
CONSTITUTIONAL AND STATUTORY
PROVISIONS -Continued
referred to as the "Website"), which the Attorney
General shall maintain.
(b) Information to be provided
The Website shall include relevant information for
each sex offender and other person listed on a
jurisdiction's Internet site. The Website shall allow the
public to obtain relevant information for each sex
offender by a single query for any given zip code or
geographical radius set by the user in a form and with
such limitations as may be established by the Attorney
General and shall have such other field search
capabilities as the Attorney General may provide
42 U.S.C. § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer's judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia

42a
CONSTITUTIONAL AND STATUTORY
PROVISIONS -Continued
42 U.S.C. § 1988
(b)Attorney’s fees
In any action or proceeding to enforce a provision of
sections 1981, 1981a, 1982, 1983, 1985, and 1986 of
this title, title IX of Public Law 92–318 [20 U.S.C. 1681
et seq.], the Religious Freedom Restoration Act of 1993
[42 U.S.C. 2000bb et seq.], the Religious Land Use and
Institutionalized Persons Act of 2000 [42 U.S.C. 2000cc
et seq.], title VI of the Civil Rights Act of 1964 [42
U.S.C. 2000d et seq.], or section 12361 of title 34, the
court, in its discretion, may allow the prevailing party,
other than the United States, a reasonable attorney’s
fee as part of the costs, except that in any action
brought against a judicial officer for an act or omission
taken in such officer’s judicial capacity such officer
shall not be held liable for any costs, including
attorney’s fees, unless such action was clearly in excess
of such officer’s jurisdiction.
Federal of Civil Procedure 12
(b)(6) failure to state a claim upon which relief can be
granted;
(d) Result of Presenting Matters Outside the
Pleadings. If, on a motion under Rule 12(b)(6) or 12(c),
matters outside the pleadings are presented to and not
excluded by the court, the motion must be treated as
one for summary judgment under Rule 56. All parties
must be given a reasonable opportunity to present all
the material that is pertinent to the motion.

43a
CONSTITUTIONAL AND STATUTORY
PROVISIONS -Continued
Other Authority
DOJ SMART OFFICE
[S]ex offender registration is conducted at the
local level. . . . . .Every one of these systems has its
own nuances and distinct features. Every
jurisdiction (state, territory and tribe) makes its
own determinations about who is required to
register, what information offenders must provide,
which offenders are posted on the jurisdiction’s public
registry website, and so forth.

DOJ SMART- Office of Sex Offender Sentencing,
Monitoring, Apprehending, Registering, and Tracking
2018, https://smart.gov/caselaw.htm. As noted in
Petitioner’s Appendix in Support of Complaint. R.1.1,
PageID 97.

